                   . - .    .      NATIONAL SCIENCE FOUNJATION
                                     WASHINGTON, D.C. 20550




           O f f i c e of
       Inspector General



       MEMORANDUM                          {a)     F'   g
                                                        it

              DATE: May 25, 1993

- --   - --
              FROM   :
               - - - --                                                                       --


               VIA:                    , Special Agent-in-Char
                           Investigations Section
        SUBJECT:           Misrepresentation by

                 TO:       Case No. I93040015

       On April    1, .1993., we                 received    an   allegation   that   a
       misrepresentation by a



                        icials claimed the university had spent over
       $800,000-in anticipation of the forthcoming funds, based on Dr.                    .
       V s s u r a n c e s . Those assurances allegedly were given both
       in late January 1993, in a conference call, and i n - ~ e b r u a r
                                                                         1993
                                                                           ~ at
                      society meeting, after ~
                                             r
                                             .
                                             -
                                             a
                                             s                   no longer an

       We interviewed Dr. -
                          b
                          y            phone on May 5 , 1993. ~r.-
       stated that he did In ac - retire on January 3, 1993, but that
       was frequently in his old NSF office for the next month, cleaning
       files and resolving unfinished business; he stated that he was in
       this office when he participated in a conference call
       officials concerning the anticipated grant funds. Dr.
       confirmed that the conference call occurred after he was retired.
       He also stated that he did not know whether -fficials          were
       aware that he no longer formally represented NSF and, as the
       subject was never discussed, conceded that o u l d have believed
       him to still be the cognizant Program Director. Dr.                     0
       stated that he did not intend to misrepresent himself, but meant to
       speak only in an advisory/old friend capacity. He recalled that
       the substance of the discussion concerned NSF1s awaiting the
       arrival of its official budget, at which time funds, such as those-

       for the -grant,    could be disbursed; he stated that
       the Division Director of      was not aware of the c   o    n  f   !
        1 Investigator,
spoke. He did not recallg
                                                           'mrant
Regarding the February 1993 professional society meeting, Dr.
         confinned that he did attend, that he saw the


ret

                                           at the professional society




a time limit for                   use of the office,
                                   He stated that Dr.
                           from his NSF position; it
the 2nd or 3rd week in January, that Dr. -was                "dragging it
out too      -
               long." In approximately the first wee  of February, 1993,
Dr.
.r~detcerid'                              o move his remaining belongings
out of the office to                      his replacement.
Dr.         stated that he was not aware of the conference call
between Dr.
later



    officials at that meeting, nor of any other communication since
the January conference call. Finally, Dr. w        h     a      t a
memorandum had been sent from him to all of                   field
contacts, informing them of 0retirement; he provided us
with a copy of that memo, dated March 3, 1993.
We counseled Dr.
himself as an NSF oY'm!'?  on the importance of not representing
                          after his retirement, either implicitly
or explicitly. We also counseled ~r--bout          the dangers of
allowing former employees to continue to use office space. We
found no other improprieties or irregularities in this matter.
This case is closed.
